U.S. Department of                                         The Inspector General   Office of Inspector General
Transportation                                                                     Washington, D.C. 20590
Office of the Secretary
of Transportation


 September 7, 2006

 The Honorable James L. Oberstar
 United States House of Representatives
 Washington, DC 20515

 Dear Representative Oberstar:

 This is in response to your May 30, 2006, letter requesting that we review the
 implementation of the Federal Aviation Administration’s (FAA) Aging Airplane
 Safety Rule.1 Specifically, you requested that we evaluate FAA’s oversight of air
 carriers’ aging aircraft programs to determine whether these programs are effective in
 managing and detecting issues associated with aging aircraft fleets and whether
 vulnerabilities exist in the commercial aviation industry due to aging aircraft. We
 briefed your staff on the results of our review and, as requested, are providing a
 summary of our observations. Further details on the results of our review and the
 specific work we performed can be found in the enclosure to this letter.

 Two of the main factors that prompted FAA and the aviation industry to develop the
 Aging Airplane Program were the 1988 Aloha Airlines accident and the fact that
 airplanes were being operated beyond their original design goals. The Program was
 intended to preserve the structural integrity of the aging aircraft fleet. The 1988
 Aloha Airlines accident also prompted the Aging Aircraft Safety Act of 1991,2 which
 you sponsored. The Act required FAA to perform aircraft inspections and records
 reviews of each aircraft used in air transportation. To implement the Act’s
 requirements, FAA issued the final Aging Airplane Safety Rule in 2005 and amended
 the Program to require certain operators to perform supplemental inspections of their
 aircraft.

 Specifically, the Aging Airplane Safety Rule required that:

     - FAA perform aircraft inspection and records reviews of each multi-engine
       airplane—14 years and older—used in scheduled operations and

 1
     Aging Airplane Safety Rule, 70 F.R. 5518 (February 2, 2005).
 2
     Aging Aircraft Safety Act of 1991, Pub. L. No. 102-143 (1991).



 Control No. 2006-053
                                                                                                      2


    - Operators using aircraft with 30 or more seats perform supplemental inspections
      (detailed engineering reviews) of areas susceptible to cracks and corrosion.
      Supplemental inspections are based on complex engineering standards that are
      used to predict the amount of time the aircraft could continue to operate with
      damage, such as corrosion.

These requirements are significant first steps in attempting to mitigate the potential
hazards for large aging transport and cargo aircraft fleets. FAA has other initiatives
underway that could enhance current aging aircraft requirements for these operators.
For example, FAA recently issued an additional rulemaking addressing potential
structural damage that occurs over extended periods of time.3 FAA has also initiated
a task force to address general aviation aging aircraft issues. However, vulnerabilities
still remain in aging aircraft inspection requirements for certain passenger air carrier
and cargo aircraft fleets.

FAA’s Aging Airplane Safety Rule requires that FAA inspectors perform reviews of
aircraft maintenance records and visual spot inspections of certain aircraft; therefore,
sub-surface cracks or hidden corrosion would be impossible to detect. The process
does not require a focus on airplane fatigue cracks or crack growth, and these
deteriorations can only be detected through supplemental inspections. For example,
2 months before the fatal Chalks Ocean Airways accident of December 2005, FAA
completed an aging Airplane Inspection and Records Review on the aircraft, and no
structural issues were noted during the review. But the National Transportation
Safety Board’s (NTSB) preliminary report4 on the Chalks Ocean Airways accident
indicates that fatigue cracking was evident in both wings. This incident shows that
for those aircraft only covered under FAA’s Aircraft Inspection and Records Review
process, the structural integrity of the aircraft cannot be assured.

Additionally, we noted that FAA’s Aircraft Inspection and Records Review process
does not address three categories of aircraft. These categories are:

     1. All single-engine airplanes under Part 915 (general aviation) and Part 135
        scheduled and non-scheduled airplane operations with nine or fewer passenger
        seats. For example, we identified a Part 135 operator based in the State of
        Washington that operated over 1,300 scheduled flights in 2002 using a fleet
        with an average aircraft age of 39 years old. Many of these operators fly in
        harsh environmental conditions, such as those experienced by Chalks Ocean
        Airways.



3
  FAA Notice of Proposed Rulemaking, Widespread Fatigue Damage, issued April 18, 2006.
4
  NTSB Preliminary Report Number DCA06MA010.
5
  Part 91 and Part 135, 14 C.F.R. § 91 (revised January 1, 2006) and 135 (revised January 1, 2003).


Control No. 2006-053
                                                                                              3


      2. All multi-engine airplanes used in non-scheduled (on-demand) passenger and
         cargo carrying operations under Part 135. We identified over 2,000 certificated
         on-demand Part 135 operators.

      3. All operators’ airplanes flying point-to-point within Alaska, regardless of
         operation or seating capacity. We identified 225 certificated on-demand or
         scheduled operators in Alaska. These operators fly under tremendously harsh
         environmental conditions, which could accelerate aging aircraft issues.

As part of FAA’s Cost Benefit Analysis for the final Aging Airplane Safety Rule, the
Agency determined that “it would be costly for operators to develop inspection
programs…” for those operators that were not covered under the rule. As a result, a
significant number of aging aircraft are not covered under any aging aircraft program,
as shown in the chart below.


             Type of Operation                Operator Inspections FAA Inspectors
                                                 Supplemental       Inspection &
                                                  Inspections      Records Review
        Multi-Engine/Scheduled
        Operators With 30+ seats
        (including Part 121 cargo)            Required                         Required

        Multi-Engine/Scheduled
        Operators Below 30 seats              Not Required                     Required

        Multi-Engine/On-Demand
        Operators
        (including Part 135 cargo)            Not Required                     Not Required

        Single-Engine Operators               Not Required                     Not Required

        Alaska Operators
        (flights within the State)            Not Required                     Not Required


The gap in the aging aircraft program coverage, coupled with the limitations of the
Aircraft Inspection and Records Review process, indicates that aging aircraft
vulnerabilities still exist in portions of the U.S. aviation fleet. During its investigation
of the Chalks Ocean Airways accident, NTSB identified similar vulnerabilities. In its
July 2006 Safety Recommendation to FAA,6 NTSB stated that the exemptions present

6
    National Transportation Safety Board Safety Recommendation, A-06-52, July 25, 2006.


Control No. 2006-053
                                                                                     4


in FAA’s final rule are contrary to the Agency’s one-level-of-safety initiative, which
was developed in the mid 1990s, and to the instructions in the Aging Aircraft Safety
Act of 1991. As a result, NTSB recommended that FAA require a records review,
aging airplane inspections, and supplemental inspections for all airplanes operated
under 14 Code of Federal Regulations (CFR) Part 121, all U.S. registered airplanes
operated under 14 CFR 129, and all airplanes in scheduled operations under 14 CFR
Part 135.

The Chalks Ocean Airways accident highlighted the importance of ensuring the
structural integrity of older aircraft. FAA, Congress, and the aviation industry have
made significant strides in this area. However, as operators continue to operate
aircraft beyond their original design service goals, aging aircraft will continue to be
an area that bears watching.

If we can answer any questions or be of further assistance, please feel free to contact
me at (202) 366-1959 or David A. Dobbs, Acting Principal Assistant Inspector
General for Auditing and Evaluation, at (202) 366-0500.


Sincerely,




Todd J. Zinser
Acting Inspector General


Enclosure




Control No. 2006-053
                                                                                   Enclosure
                                                                                 Page 1 of 12




                       Briefing on FAA’s Aging Airplane Program
                                 U.S. Department of Transportation
                                      Office of Inspector General


                       For the Committee on Transportation and Infrastructure

                                   U.S. House of Representatives




                        SUMMARY OF OIG WORK

           To obtain information on FAA’s implementation and
            oversight of the Aging Airplane Program, we contacted
            or visited the following entities:

              – FAA Headquarters—
                    Headquarters—obtained briefing on aging aircraft program.


              – National Institute for Aviation Research, Wichita State University
                                                                        University—
                                                                                  —
                obtained information on a study commissioned by FAA on aging
                general aviation aircraft. (See Appendix A)
                                                         A)


              – NTSB—
                NTSB—met with investigators on the Chalks Ocean Airways
                (Chalks) accident.


                                                                                      2




Control No. 2006-053
                                                                                           Enclosure
                                                                                         Page 2 of 12



                SUMMARY OF OIG WORK (continued)

            With a focus on aging aircraft structures, we also:

               – Researched applicable laws and rules.

               – Attended applicable conferences on aging aircraft.

               – Shadowed an FAA inspector during an aging aircraft inspection.

               – Analyzed FAA databases for operator information, including aircraft
                                                                            aircraft
                 ages and FAA aging aircraft inspection information.




                                                                                           3




                 SUMMARY OF OIG WORK (continued)
            General Findings and Comments:

               – All aircraft are required to have a records review and aircraft
                 inspection by FAA, with the exception of:
                    single engine aircraft,
                    aircraft used in on-
                                      on-demand operations, and
                    aircraft used in operations in Alaska.

               – The Inspection and Records Reviews performed by FAA are
                 very limited.
                    For example, the inspections are visual inspections only, so subsurface
                                                                                  subsurface
                     corrosion or cracks would not be identified—
                                                      identified—e.g., Chalks.


                                                                                          4




Control No. 2006-053
                                                                                              Enclosure
                                                                                            Page 3 of 12




                SUMMARY OF OIG WORK (continued)

                General Findings and Comments (continued):
                                               (continued):

                   − Operators using aircraft with 30 or more seats are required
                     to include supplemental inspections (detailed engineering
                     reviews) of areas susceptible to cracks and corrosion—
                                                                 corrosion—this
                     becomes part of the operator’s maintenance program.

                   − All other operators are not required to have these in-
                                                                        in-depth
                     inspections.




                                                                                                5




                                         Background
            Working with the aviation industry, FAA developed an Aging
             Airplane Program in response to:
               – Airplanes being operated beyond original design service goals.

               – Determination that original manufacturers’ maintenance plans were
                                                                              were not
                 required to address potential age-
                                               age-related issues.
               – 1988 Aloha B-
                            B-737 accident.
                    Probable Cause: Aloha’s failure to detect structural damage

            FAA revised the Aging Airplane Program in response to:
               – The Aging Aircraft Safety Act of October 1991, sponsored by
                 Representative James L. Oberstar.
               – The 1996 TWA 800 and 1998 Swissair accidents, which highlighted wiring
                 issues related to aging aircraft.
            The Aging Airplane Safety Rule was issued in 2005 to implement
             the 1991 Oberstar Act and to require certain operators to perform
                                                                       perform
             supplemental inspections of their aircraft
               – Ultimately, FAA decided to address wiring (i.e., non-
                                                                  non-structural) issues in a
                 separate rulemaking to be issued at a later date.
                                                                                                6




Control No. 2006-053
                                                                                                                            Enclosure
                                                                                                                          Page 4 of 12



               Timeline of the Aging Airplane Program

                   April       August               October           1996 and               October February
                   1988         1988                 1991               1998                  1998     2005
                                                                             TWA
                                                                             and
                                                                           Swissair
                                                                                                                    2006
                                                                          Accidents
                                                                    Probable causes of
                                                                         both: wiring
                                                                    (i.e., non-structural)
            Aloha Accident                  Aging Aircraft Safety Act                                      Aging
                                            (Sponsored by Representative                                  Airplane
                                                 James L. Oberstar)
                                                                                                         Safety Rule
                              FAA Aging                                                      FAA Aging
                           Airplane Program                                                   Airplane
                                                                                              Program
                      Goal: Preserve the structural                              Goal: Program expanded to
                     integrity of aging airplane fleet                           include non-structural
                                                                                 systems
                                                                                                            Other rulemaking(s) in
                                                                                                             progress to address
                                                         Program                                            non-structural systems
                                                         Revision                                             (See Appendix C)
                                                                                                                            7




                                                 Background

                   Aging Aircraft Safety Act— October 1991

               Requires FAA to initiate a rule to assure the
                continuing airworthiness of aging aircraft.
               Requires FAA to perform an Inspection and
                Records Review of each aircraft air carriers
                use to provide air transportation.
               –       Inspection must show that maintenance of the aircraft’s structure,
                                                                               structure,
                       skin, and other age-
                                       age-sensitive parts has been adequate and
                       timely.
               –       Inspections should be conducted as part of a heavy maintenance
                       check after 14 years of service.

                                                                                                                            8




Control No. 2006-053
                                                                                                          Enclosure
                                                                                                        Page 5 of 12


                                            Rulemaking
                       Aging Airplane Safety Rule – February 2005
           The Final Rule was issued to implement the 1991 Aging Aircraft
            Safety Act and to require certain operators to perform supplemental
                                                                          supplemental
            inspections on their aircraft. (See Appendix B for Summary of
                                                               Requirements)

              – Requires an FAA Inspection and Records Review of each multi-
                                                                      multi-engine
                airplane—
                airplane—14 years and older—
                                      older—used in scheduled operation.
                    Airplanes over 24 years in service, must be inspected by 12/07.

                    Airplanes over 14 years but not yet 24 years, must be inspected by 12/08.

              – Requires operators to incorporate Damage Tolerance (DT) based inspections
                for airplanes with 30 or more passenger seats by specified deadlines.
                                                                           deadlines.
                    DT inspections are based on predictive engineering analysis performed
                                                                                     performed to provide
                     early detection of fatigue cracks, including specific analysis of
                                                                                    of repairs, alterations,
                     and modifications to the aircraft.

                    Operators must have a program in place by December 2010.


                                                                                                          9




                            Rule Requirements - FAA
                                Inspection and Records Review
              Per the 1991 Act, FAA is required to conduct an aging airplane
              Inspection and Records Review for each multi-
                                                       multi-engine airplane used
              in scheduled commercial service.
           FAA must perform a routine visual inspection of each airplane
            during a maintenance check and review the maintenance records of
            each airplane.
                Records Review –FAA will determine the number of years the airplane has
                 been in service and the number of flight cycles and flight hours of the aircraft.
                 In addition, FAA will determine whether the airplane is in compliance
                                                                            compliance with all
                 applicable Airworthiness Directives (ADs) and whether all age-
                                                                             age-sensitive parts
                 have been replaced in a timely manner.

                    ADs are notifications to aircraft owner/operators of a known safety issue
                     with a particular model of aircraft.

                Airplane Inspection –FAA is required to perform a spot inspection of each
                 airplane, looking for cracks and corrosion.


                                                                                                         10




Control No. 2006-053
                                                                                   Enclosure
                                                                                 Page 6 of 12


                               Rule Requirements - FAA
                         Inspection and Records Review (continued)


            Inspection and Record Reviews can be conducted by:

                – FAA Inspectors;

                – Designated Airworthiness Representatives (DAR)—
                                                             (DAR)—individual
                  appointed by FAA to perform examination, inspection, and testing
                  services necessary to issue FAA certificates; or

                – Organizational Designated Airworthiness Representatives
                  (ODAR)—
                  (ODAR)—an organization (e.g., manufacturer or operator)
                  appointed by FAA that collectively meets the experience and
                  technical requirements of an individual DAR.


                                                                                     11




                    Weaknesses in the Inspection and
                       Records Review Process
          The process used does not require a focus on
           airplane fatigue cracks or crack growth (this
           would be accomplished through supplemental
           inspections).

          Because the inspections are only visual in
           nature, the inspections will not identify
           subsurface cracks or hidden corrosion.

          Example: Chalks Ocean Airways
               The accident airplane had an FAA aging airplane
                Inspection and Records Review 2 months prior to the
                fatal accident—
                      accident—no structural issues were noted by
                FAA. However, initial NTSB evidence points to
                fatigue cracking in both wings.

          Under FAA’s final rule, aircraft built before 1958
           are exempt from supplemental inspections.
           Therefore, even if this category of aircraft
           would have been included in the final rule, the
           operator would have been exempt from
           performing supplemental inspections because
           this aircraft was built in 1947.

                                                                                     12




Control No. 2006-053
                                                                                       Enclosure
                                                                                     Page 7 of 12


                          Rule Requirements - FAA
                               Inspection and Records Review

          Airplanes Not Covered

              – All single-
                    single-engine airplanes under 14 CFR Part 91 (Part 91). Part
                135 scheduled and non-
                                     non-scheduled airplane operations with nine or
                fewer passenger seats.


              – Multi-
                Multi-engine airplanes used in non-
                                               non-scheduled (on-
                                                             (on-demand)
                passenger carrying operations under Part 135.


              – Operators’ airplanes that fly point-
                                              point-to-
                                                    to-point only in the State of
                Alaska.


                                                                                      13




                 Rule Requirements - Operators
                         Supplemental Airframe Inspections
                        (Required for operators of aircraft with 30 or more seats,
                                    except those operated in Alaska)


             The maintenance program for the airplane must include FAA-
                                                                     FAA-approved
              damage tolerance-
                       tolerance-based inspections and procedures for those
              structures susceptible to fatigue cracking.

             Damage tolerance-
                        tolerance-based inspections are inspections performed by
              operators based on complex engineering standards that are used toto
              predict airplane structural cracks and corrosion.

              – Example—
                Example—These inspections should help determine the amount of
                time that the aircraft could continue to operate with damage
                present.

                                                                                      14




Control No. 2006-053
                                                                                                         Enclosure
                                                                                                       Page 8 of 12



                       Rule Requirements - Operators
                       Supplemental Airframe Inspections

           Airplanes Not Covered

                – All airplanes under Part 91 and 135 (scheduled, on-
                                                                  on-
                  demand, and cargo)

                – All Part 121 airplanes with fewer than 30 passenger
                  seats (e.g., Chalks)

                – All airplanes flying point-to-point only in the State of
                  Alaska

                                                                                                        15




                  Aging Airplane Inspection Coverage
           1.     Airplanes / Operations Covered by Inspection and
                                    Records Review Only
                       (i.e., operator is not required to perform Supplemental Inspections)
                                                                               Inspections)
               Multi-
               Multi-engine airplanes with less than 30 passenger seats, used for
               scheduled operations
           –      Example:
                  Example: A Part 121 / 135 scheduled operator in Massachusetts
                    49 Cessna 400 series multi-
                                            multi-engine airplanes*
                                                         airplanes* with 9 passenger seats.
                    Fleet average age is 25 years.
                    Harsh environmental conditions like Chalks operations.
           –      Aircraft in this category are not built to be torn down for Supplemental
                                                                               Supplemental Inspections—
                                                                                            Inspections—
                  Example:
                  Example: major attachments such as wing-  wing-to-
                                                                  to-fuselage attachments are not removed
                  and inspected because of the aircraft design.
           –      According to FAA and industry, operators in this category would suffer an economic
                  burden if they were required to implement Supplemental Inspection
                                                                           Inspection Programs.
           –      Average age of aircraft in this category is 35 years and will be 50 years in 2020.
           *      Cessna 400 series airplanes are said to be indicative of the Part
                                                                                 Part 135 fleet. There are
                  367 Cessna 400 series aircraft in Part 135 service. These particular airplanes
                                                                                           airplanes have a
                  history of critical cracks and corrosion on engines and flight controls
                                                                                 controls (see Appendix A).


                                                                                                        16




Control No. 2006-053
                                                                                                     Enclosure
                                                                                                   Page 9 of 12


                 Aging Airplane Inspection Coverage
            2. Airplanes / Operations Not Under Any Aging Airplane Program
                       (i.e., required Supplemental Inspection or Inspection and Records
                                                                                 Records Review)

                             All single-
                                  single-engine airplanes
                             There are 2,438 U.S. registered single-
                                                              single-engine airplanes
                              (excluding Part 91).

                                Example: A Part 135 operator in Washington State
                              - Example:
                                     4 24 single-
                                           single-engine airplanes (18 are seaplanes).
                                     4 All are commuter or on-
                                                             on-demand airplanes (i.e., nine
                                       passengers or less).
                                     4 1,346 scheduled departures in 2002.
                                     4 Harsh environmental conditions like Chalks operations.
                                     4 Fleet average age is 39 years (range from 6 to 54
                                       years).


                                                                                                   17




                Aging Airplane Inspection Coverage
               2. Airplanes / Operations Not Under Any Aging Airplane Program
                                          (continued)
                                          (continued)

                        Part 135 on-
                                  on-demand —There are 2,016 Certificated
                         Operators
                          – Example:
                            Example: An on-
                                         on-demand passenger and cargo carrier in
                            California
                             4 16 single and multi-
                                              multi-engine airplanes, including 9 Cessna 400
                                 series.


                        Part 135 air cargo
                          – Example:
                            Example: A large air cargo operator in California
                             4 Largest U.S. Part 135 cargo carrier—
                                                            carrier—170+ multi-
                                                                            multi-engine
                               airplanes and 525 daily departures.
                             4 Destinations in 30 U.S. states, Canada, Mexico, and the
                               Caribbean.


                                                                                                   18




Control No. 2006-053
                                                                                                   Enclosure
                                                                                                Page 10 of 12


                 Aging Airplane Inspection Coverage
                2. Airplanes / Operations Not Under Any Aging Airplane Program
                                           (continued)
                        All Airplanes Operated Within the State of Alaska (exempt
                        from rule)


                          – 10,518 registered airplanes.
                          – There are 225 air carriers certified in Alaska as either on-
                                                                                     on-
                            demand or scheduled carriers.
                          – Example:
                            Example: A Part 121 / 135 passenger carrier in Alaska
                              413 multi-
                                   multi-engine airplanes (19 to 37 passenger seats).
                              4Fleet average age is 27 years old.
                              4Approximately 695 weekly scheduled departures.

                        General Aviation Part 91—
                                               91—privately owned airplanes


                                                                                                  19




                                                 Appendix A

                  FAA / Wichita State University Study
                               Cessna 402




             FAA established a research program at the National Institute for Aviation
              Research, Wichita State University to conduct destructive testing of aged general
              aviation aircraft to determine if potential airworthiness problems
                                                                        problems exist for the fleet
              as a result of the aging process.


             Study included destructive testing of three airplanes used in commuter
                                                                            commuter service—
                                                                                         service—a
              1969 Cessna 402A, a 1979 Cessna 402C, and a 1975 Piper Navajo Chieftain.
                                                                                 Chieftain. These
              aircraft were determined to be representative of the small airplane
                                                                         airplane fleet.


             Compared results of routine visual inspections (i.e., similar to
                                                                            to FAA’s Inspection
              and Records Reviews) with air carrier supplemental Inspections andand teardown 20
              inspections.




Control No. 2006-053
                                                                                                                      Enclosure
                                                                                                                   Page 11 of 12


                                                   Appendix A
        Progressive Phases of the Study and “Notable” Findings in Each Phase
              •Records Review
              (Findings)
              •Planes tend to operate in highly                                     Visual (external) Inspection
               corrosive environments
                                                          Findings         Step 1   (i.e., Inspection and Records Review)
              •Multiple ADs for cracks and corrosion
                                                     •Loose wing flap nuts
                                                   •Broken fuel selector valve
                                                 •Two cracks on a flight control



                                                                                     Step 2            Supplemental
                                                                                                        Inspections
                                                    •Cracks in landing gear                             (i.e., partial
                                      •Cracks and corrosion in critical flight controls                  access to
                                  •Cracks in fuel tank, wing and engine attachment fittings            certain areas)




                                                                                                          Step 3
                                   Microscopic exam of critical structural areas provided
                                                                                                             Teardown
                            extent of damage found during visual and supplemental inspections
                                                                                                           (i.e., full access to
                                                                                                           critical areas)
                          •303 defects were found on/in critical flight controls on the Piper Navajo
                            •25 cracks and severe corrosion were found on/in one engine beam
                            •Some of the fatigue cracks were deemed to be “potentially unsafe”

                                                                                                                       21




                                                    Appendix A

                          FAA / Wichita State University
                                            Recommendations
           “Maintenance inspection programs for
            General Aviation (GA) airplanes
            [including Part 135] and Alaska
            operators should include Supplemental
            Inspections based on either Service
            History or Damage Tolerance (DT)
            analysis.”

           “Teardown evaluations should be
            expanded to other models of GA
            airplanes that do not have
            Supplemental Inspections developed
            for them” (e.g., Piper airplanes).




                                                                                                                      22




Control No. 2006-053
                                                                                                        Enclosure
                                                                                                     Page 12 of 12

                                                  Appendix B
                       Summary of Aging Airplane Program
                                Requirements
                                               Operator Inspections               FAA Inspectors
                Type of Operation
                                               Supplemental Inspections Inspection & Records Review
            Multi-
            Multi-Engine / Scheduled
            Operators with 30+ Seats        Required                        Required
            (including Part 121 cargo)

           Multi-
           Multi-Engine / Scheduled
           Operators Below 30 seats         Not Required                    Required
           Multi-
           Multi-Engine / On-
                           On-Demand
                    Operators               Not Required                    Not Required
            (including Part 135 cargo)

            Single-
            Single-Engine Operators
                                            Not Required                    Not Required
                 Alaska Operators
             (flights within the State)
                                            Not Required                    Not Required
                                                                                                        23




                                                  Appendix C
                                          FAA Initiatives
            1.     Widespread Fatigue Damage (WFD) - Simultaneous presence of cracks at
                   multiple structural locations on the aircraft that are of sufficient size and density that
                   the structure will no longer meet residual strength requirements.

            –      Proposed rule, issued April 18, 2006, will establish operational limits for transport
                   category aircraft 75,000 pounds and greater in order to preclude widespread fatigue
                   damage. (Airplanes in this category range from regional jets to large transport
                   category airplanes (e.g., B-747) The comment period was extended to September
                   18, 2006.

            –      Applies to aircraft manufacturers and operators. Rule will require the development
                   and incorporation of maintenance procedures to preclude widespread fatigue
                   damage prior to the airplane reaching an established operational limit.

            –      Operation beyond the established limit would be prohibited unless operators have
                   established WFD detection procedures into their maintenance program. If WFD
                   goes undetected, it could lead to catastrophic failure due to a reduction in strength.

            2.     General Aviation Committees- Committees of FAA and non-FAA stakeholders
                   were developed to establish proposals to address the top seven aging aircraft
                   issues facing general aviation, including: defining the term “aging,” education and
                   training for owners and operators, repair data availability, and approved parts
                   availability.                                                                    24




Control No. 2006-053
The following section contains the plain
text version of the graphic enclosure,
according to Section 508 requirements.
                       Briefing on FAA’s Aging Airplane Program
                                 U.S. Department of Transportation
                                      Office of Inspector General


                       For the Committee on Transportation and Infrastructure

                                   U.S. House of Representatives
                                                                                1

Control No. 2006-053
                       SUMMARY OF OIG WORK
 • To obtain information on FAA’s implementation and
   oversight of the Aging Airplane Program, we contacted
   or visited the following entities:

         – FAA Headquarters—obtained briefing on aging aircraft program.

         – National Institute for Aviation Research, Wichita State University—
           obtained information on a study commissioned by FAA on aging
           general aviation aircraft. (See Appendix A)

         – NTSB—met with investigators on the Chalks Ocean Airways
           (Chalks) accident.


                                                                             2

Control No. 2006-053
           SUMMARY OF OIG WORK (continued)

 • With a focus on aging aircraft structures, we also:
        – Researched applicable laws and rules.

        – Attended applicable conferences on aging aircraft.

        – Shadowed an FAA inspector during an aging aircraft inspection.

        – Analyzed FAA databases for operator information, including aircraft
          ages and FAA aging aircraft inspection information.




                                                                           3

Control No. 2006-053
           SUMMARY OF OIG WORK (continued)
 • General Findings and Comments:

        – All aircraft are required to have a records review and aircraft
          inspection by FAA, with the exception of:
                • single engine aircraft,
                • aircraft used in on-demand operations, and
                • aircraft used in operations in Alaska.


        – The Inspection and Records Reviews performed by FAA are
          very limited.
                • For example, the inspections are visual inspections only, so subsurface
                  corrosion or cracks would not be identified—e.g., Chalks.



                                                                                      4

Control No. 2006-053
           SUMMARY OF OIG WORK (continued)

        – General Findings and Comments (continued):

                • Operators using aircraft with 30 or more seats are required
                  to include supplemental inspections (detailed engineering
                  reviews) of areas susceptible to cracks and corrosion—this
                  becomes part of the operator’s maintenance program.

                • All other operators are not required to have these in-depth
                  inspections.




                                                                            5

Control No. 2006-053
                                      Background
 • Working with the aviation industry, FAA developed an Aging
   Airplane Program in response to:
         – Airplanes being operated beyond original design service goals.

         – Determination that original manufacturers’ maintenance plans were not
           required to address potential age-related issues.

         – 1988 Aloha B-737 accident.
                • Probable Cause: Aloha’s failure to detect structural damage

 • FAA revised the Aging Airplane Program in response to:
         – The Aging Aircraft Safety Act of October 1991, sponsored by
           Representative James L. Oberstar.

         – The 1996 TWA 800 and 1998 Swissair accidents, which highlighted wiring
           issues related to aging aircraft.
 • The Aging Airplane Safety Rule was issued in 2005 to implement
   the 1991 Oberstar Act and to require certain operators to perform
   supplemental inspections of their aircraft
         – Ultimately, FAA decided to address wiring (i.e., non-structural) issues in a
           separate rulemaking to be issued at a later date.
                                                                                      6

Control No. 2006-053
         Timeline of the Aging Airplane Program
     •    April 1988 – Aloha Airlines Accident

     •    August 1988 – FAA Aging Airplane Program. Goal: Preserve the structural integrity
          of aging airplane fleet

     •    October 1991 – Aging Aircraft Safety Act (Sponsored by Representative James L.
          Oberstar)

     •    1996 and 1998 – TWA and Swissair Accidents. Probable causes of both: wiring (i.e.
          non-structural)

     •    October 1998 – FAA Aging Airplane Program; Program Revision. Goal: Program
          expanded to include non-structural systems

     •    February 2005 – Aging Airplane Safety Rule

     •    2006 – Other rulemaking(s) in progress to address non-structural systems (See
          Appendix C)
                                                                                              7

Control No. 2006-053
                                  Background

             Aging Aircraft Safety Act— October 1991

 •           Requires FAA to initiate a rule to assure the
             continuing airworthiness of aging aircraft.
 •           Requires FAA to perform an Inspection and
             Records Review of each aircraft air carriers
             use to provide air transportation.
         –       Inspection must show that maintenance of the aircraft’s structure,
                 skin, and other age-sensitive parts has been adequate and
                 timely.
         –       Inspections should be conducted as part of a heavy maintenance
                 check after 14 years of service.
                                                                                 8

Control No. 2006-053
                                        Rulemaking
                       Aging Airplane Safety Rule – February 2005
•    The Final Rule was issued to implement the 1991 Aging Aircraft
     Safety Act and to require certain operators to perform supplemental
     inspections on their aircraft. (See Appendix B for Summary of
                                                           Requirements)

       – Requires an FAA Inspection and Records Review of each multi-engine
         airplane—14 years and older—used in scheduled operation.

               • Airplanes over 24 years in service, must be inspected by 12/07.

               • Airplanes over 14 years but not yet 24 years, must be inspected by 12/08.

       – Requires operators to incorporate Damage Tolerance (DT) based inspections
         for airplanes with 30 or more passenger seats by specified deadlines.

               • DT inspections are based on predictive engineering analysis performed to provide
                 early detection of fatigue cracks, including specific analysis of repairs, alterations,
                 and modifications to the aircraft.

               • Operators must have a program in place by December 2010.                           9

Control No. 2006-053
                        Rule Requirements – FAA
                             Inspection and Records Review

     Per the 1991 Act, FAA is required to conduct an aging airplane
     Inspection and Records Review for each multi-engine airplane used
     in scheduled commercial service.
   • FAA must perform a routine visual inspection of each airplane
     during a maintenance check and review the maintenance records of
     each airplane.
         – Records Review –FAA will determine the number of years the airplane has
           been in service and the number of flight cycles and flight hours of the aircraft.
           In addition, FAA will determine whether the airplane is in compliance with all
           applicable Airworthiness Directives (ADs) and whether all age-sensitive parts
           have been replaced in a timely manner.
                • ADs are notifications to aircraft owner/operators of a known safety issue with a
                  particular model of aircraft.
         – Airplane Inspection –FAA is required to perform a spot inspection of each
           airplane, looking for cracks and corrosion.
                                                                                               10

Control No. 2006-053
                          Rule Requirements – FAA

                       Inspection and Records Review (continued)

 • Inspection and Record Reviews can be conducted by:

        – FAA Inspectors;

        – Designated Airworthiness Representatives (DAR)—individual
          appointed by FAA to perform examination, inspection, and testing
          services necessary to issue FAA certificates; or

        – Organizational Designated Airworthiness Representatives
          (ODAR)—an organization (e.g., manufacturer or operator)
          appointed by FAA that collectively meets the experience and
          technical requirements of an individual DAR.


                                                                         11

Control No. 2006-053
         Weaknesses in the Inspection and Records Review
                             Process
•    The process used does not require a focus on
     airplane fatigue cracks or crack growth (this
     would be accomplished through supplemental
     inspections).

•    Because the inspections are only visual in
     nature, the inspections will not identify
     subsurface cracks or hidden corrosion.               Picture of Chalks accident airplane
                                                          about to hit the water with a column
                                                          of smoke and flames trailing
•    Example: Chalks Ocean Airways
      – The accident airplane had an FAA aging
        airplane Inspection and Records Review 2-
        months prior to the fatal accident—no
        structural issues were noted by FAA.
        However, initial NTSB evidence points to
        fatigue cracking in both wings.

•    Under FAA’s final rule, aircraft built before 1958
     are exempt from supplemental inspections.
     Therefore, even if this category of aircraft would
     have been included in the final rule, the operator   Picture of separated wing and
     would have been exempt from performing               engine being lifted from the water
     supplemental inspections because this aircraft                                              12
     was built in 1947.
Control No. 2006-053
                       Rule Requirements - FAA
                       Inspection and Records Review

• Airplanes Not Covered

       – All single-engine airplanes under 14 CFR Part 91 (Part 91). Part
         135 scheduled and non-scheduled airplane operations with nine or
         fewer passenger seats.


       – Multi-engine airplanes used in non-scheduled (on-demand)
         passenger carrying operations under Part 135.


       – Operators’ airplanes that fly point-to-point only in the State of
         Alaska.



                                                                             13

Control No. 2006-053
              Rule Requirements - Operators
                        Supplemental Airframe Inspections
                       (Required for operators of aircraft with 30 or more seats,
                                   except those operated in Alaska)


 •     The maintenance program for the airplane must include FAA-approved
       damage tolerance-based inspections and procedures for those
       structures susceptible to fatigue cracking.

 •     Damage tolerance-based inspections are inspections performed by
       operators based on complex engineering standards that are used to
       predict airplane structural cracks and corrosion.

         – Example—These inspections should help determine the amount of
           time that the aircraft could continue to operate with damage
           present.
                                                                                    14

Control No. 2006-053
                       Rule Requirements - Operators
                  • Supplemental Airframe Inspections

 • Airplanes Not Covered

         – All airplanes under Part 91 and 135 (scheduled, on-
           demand, and cargo)

         – All Part 121 airplanes with fewer than 30 passenger
           seats (e.g., Chalks)

         – All airplanes flying point-to-point only in the State of
           Alaska
                                                                      15

Control No. 2006-053
              Aging Airplane Inspection Coverage
    1.         Airplanes / Operations Covered by Inspection and
                                Records Review Only
                         (i.e., operator is not required to perform Supplemental Inspections)


  Multi-engine airplanes with less than 30 passenger seats, used for scheduled
  operations
    –          Example: A Part 121 / 135 scheduled operator in Massachusetts
                •     49 Cessna 400 series multi-engine airplanes* with 9 passenger seats.
                •     Fleet average age is 25 years.
                •     Harsh environmental conditions like Chalks operations.
    –          Aircraft in this category are not built to be torn down for Supplemental Inspections—
               Example: major attachments such as wing-to-fuselage attachments are not removed
               and inspected because of the aircraft design.
    –          According to FAA and industry, operators in this category would suffer an economic
               burden if they were required to implement Supplemental Inspection Programs.
    –          Average age of aircraft in this category is 35 years and will be 50 years in 2020.
* Cessna 400 series airplanes are said to be indicative of the Part 135 fleet. There are
  367 Cessna 400 series aircraft in Part 135 service. These particular airplanes have a
  history of critical cracks and corrosion on engines and flight controls (see Appendix A).
                                                                                                16

  Control No. 2006-053
            Aging Airplane Inspection Coverage
2. Airplanes / Operations Not Under Any Aging Airplane Program
         (i.e., required Supplemental Inspection or Inspection and Records Review)


                       •   All single-engine airplanes
                       •   There are 2,438 U.S. registered single-engine airplanes
                           (excluding Part 91).


                           - Example: A Part 135 operator in Washington State
                                »   24 single-engine airplanes (18 are seaplanes).
                                »   All are commuter or on-demand airplanes (i.e., nine
                                    passengers or less).
                                »   1,346 scheduled departures in 2002.
                                »   Harsh environmental conditions like Chalks operations.
                                »   Fleet average age is 39 years (range from 6 to 54
                                    years).


                                                                                       17

Control No. 2006-053
            Aging Airplane Inspection Coverage
         2. Airplanes / Operations Not Under Any Aging Airplane Program
                                    (continued)
                • Part 135 on-demand —There are 2,016
                  Certificated Operators
                       – Example: An on-demand passenger and cargo carrier in
                         California
                          » 16 single and multi-engine airplanes, including 9
                             Cessna 400 series.


                • Part 135 air cargo
                       – Example: A large air cargo operator in California
                          » Largest U.S. Part 135 cargo carrier—170+ multi-
                            engine airplanes and 525 daily departures.
                          » Destinations in 30 U.S. states, Canada, Mexico, and
                            the Caribbean.
                                                                              18

Control No. 2006-053
            Aging Airplane Inspection Coverage
          2. Airplanes / Operations Not Under Any Aging Airplane Program
                                     (continued)
              • All Airplanes Operated Within the State of Alaska (exempt
                from rule)

                       – 10,518 registered airplanes.
                       – There are 225 air carriers certified in Alaska as either on-
                         demand or scheduled carriers.
                       – Example: A Part 121 / 135 passenger carrier in Alaska
                           » 13 multi-engine airplanes (19 to 37 passenger seats).
                           » Fleet average age is 27 years old.
                           » Approximately 695 weekly scheduled departures.

                 • General Aviation Part 91—privately owned airplanes

                                                                                   19

Control No. 2006-053
                                            Appendix A

               FAA / Wichita State University Study
                         Cessna 402




 •     FAA established a research program at the National Institute for Aviation Research,
       Wichita State University to conduct destructive testing of aged general aviation aircraft to
       determine if potential airworthiness problems exist for the fleet as a result of the aging
       process.

 •     Study included destructive testing of three airplanes used in commuter service—a 1969
       Cessna 402A, a 1979 Cessna 402C, and a 1975 Piper Navajo Chieftain. These aircraft
       were determined to be representative of the small airplane fleet.

 •     Compared results of routine visual inspections (i.e., similar to FAA’s Inspection and
       Records Reviews) with air carrier supplemental Inspections and teardown inspections.
                                                                                               20

Control No. 2006-053
                               Appendix A
     Progressive Phases of the Study and “Notable” Findings in Each
                                 Phase
 •    Records Review – Findings:
       – Planes tend to operate in highly corrosive environments
       – Multiple ADs for cracks and corrosion

 •    Step 1 – Visual (external) Inspection (i.e., Inspection and Records Review)
       Findings:
            • Loose wing flap nuts
            • Broken fuel selector valve
            • Two cracks on a flight control

 •    Step 2 – Supplemental Inspections (i.e., partial access to certain areas)
       Findings:
            • Cracks in landing gear
            • Cracks and corrosion in critical flight controls
            • Cracks in fuel tank, wing and engine attachment fittings

 •    Step 3 – Teardown (i.e. full access to critical areas
       Findings:
            • Microscopic exam of critical structural areas provided extent of damage found
               during visual and supplemental inspections
                 – 303 defects were found on/in critical flight controls on the Piper Navajo
                 – 25 cracks and severe corrosion were found on/in one engine beam
                                                                                             21
                 – Some of the fatigue cracks were deemed to be “potentially unsafe”
Control No. 2006-053
                                     (Appendix A)
                           FAA / Wichita State University
                                  Recommendations


•     “Maintenance inspection programs for
      General Aviation (GA) airplanes
      [including Part 135] and Alaska
      operators should include Supplemental
      Inspections based on either Service
      History or Damage Tolerance (DT)
      analysis”

•     “Teardown evaluations should be
      expanded to other models of GA          Picture of separated wing from an
      airplanes that do not have              unknown GA airplane sitting in the
      Supplemental Inspections developed      grass
      for them” [e.g. Piper airplanes]



                                                                               22

    Control No. 2006-053
                                    Appendix B
                  Summary of Aging Airplane Program Requirements
                                     Operator Inspections     FAA Inspectors

      Type of Operation           Supplemental Inspections   Inspection & Records Review
   Multi-Engine / Scheduled
   Operators with 30+ Seats       Required                   Required
   (including Part 121 cargo)

  Multi-Engine / Scheduled
  Operators Below 30 seats        Not Required               Required
  Multi-Engine / On-Demand
           Operators              Not Required               Not Required
   (including Part 135 cargo)

   Single-Engine Operators
                                  Not Required               Not Required
         Alaska Operators
     (flights within the State)
                                  Not Required               Not Required

                                                                                   23

Control No. 2006-053
                                      Appendix C
                              FAA Initiatives
 1. Widespread Fatigue Damage (WFD) - Simultaneous presence of cracks at multiple
    structural locations on the aircraft that are of sufficient size and density that the
    structure will no longer meet residual strength requirements.

 – Proposed rule, issued April 18, 2006, will establish operational limits for transport
   category aircraft 75,000 pounds and greater in order to preclude widespread fatigue
   damage. (Airplanes in this category range from regional jets to large transport category
   airplanes (e.g., B-747) The comment period was extended to September 18, 2006.

 – Applies to aircraft manufacturers and operators. Rule will require the development and
   incorporation of maintenance procedures to preclude widespread fatigue damage prior
   to the airplane reaching an established operational limit.

 – Operation beyond the established limit would be prohibited unless operators have
   established WFD detection procedures into their maintenance program. If WFD goes
   undetected, it could lead to catastrophic failure due to a reduction in strength.

 2. General Aviation Committees- Committees of FAA and non-FAA stakeholders were
    developed to establish proposals to address the top seven aging aircraft issues facing
    general aviation, including: defining the term “aging,” education and training for
                                                                                       24
    owners and operators, repair data availability, and approved parts availability.
Control No. 2006-053
